  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 WING MEMORIAL HOSPITAL DID NOT
   ALWAYS BILL CORRECTLY FOR
  EVALUATION AND MANAGEMENT
SERVICES RELATED TO DIAGNOSTIC OR
  THERAPEUTIC PROCEDURES AND
       SUPARTZ INJECTIONS
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                        David Lamir
                                                  Acting Regional Inspector
                                                          General

                                                          July 2013
                                                        A-01-12-00519
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

Wing Memorial Hospital did not fully comply with Medicare requirements for billing
outpatient evaluation and management services, resulting in estimated overpayments of
$104,000 over approximately 3 years.

WHY WE DID THIS REVIEW

A prior Office of Inspector General review found that Wing Memorial Hospital (the Hospital)
did not fully comply with Medicare billing requirements for selected outpatient claims for
evaluation and management (E&M) services billed with diagnostic or therapeutic surgical
procedures and E&M services billed with Supartz injections. Therefore, in collaboration with
the Hospital, we selected additional claims of these types to review.

The objective of this review was to determine whether the Hospital complied with Medicare
requirements for E&M services billed with diagnostic or therapeutic surgical procedures and
E&M services billed with Supartz injections.

BACKGROUND

Medicare Part B reimburses hospitals and physicians for certain procedures, such as Supartz
injections for treatment of knee osteoarthritis, administered to program beneficiaries when the
procedures are performed in hospital outpatient settings. In addition to reimbursement for the
procedure, hospitals and physicians may be eligible for an additional payment for a separate
E&M service. The additional payment reimburses (1) hospitals for overhead expenses
associated with furnishing E&M services to program beneficiaries when the services are
performed in hospital outpatient settings and (2) physicians for their professional E&M services
related to medical and surgical procedures they provide in hospital outpatient settings.

The Medicare Claims Processing Manual (the Manual) states that documentation should support
the level of service reported (Pub. No. 100-04, chapter 12, § 30.6.1 (A)). In addition, the Manual
states that a Medicare contractor pays for an E&M service that is significant, separately
identifiable, and above and beyond the usual preoperative and postoperative care associated with
the procedure that was performed (section 30.6.6(B)).

The Hospital is a 74-bed hospital located in Palmer, Massachusetts. The Hospital bills its
Medicare contractor for the overhead associated with outpatient medical services performed at
the Hospital and on behalf of its physicians for the professional services that they perform in the
Hospital’s outpatient setting.


Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services     i
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
Our current audit covered $658,204 in Medicare payments to the Hospital for 10,250 outpatient
hospital E&M services. These services had dates of service from January 2, 2009, through
March 2, 2012.

WHAT WE FOUND

The Hospital did not always comply with Medicare requirements for selected outpatient claims
for E&M services billed with diagnostic or therapeutic surgical procedures and E&M services
billed with Supartz injections. We verified that the Hospital correctly billed Medicare for 47 of
the 156 E&M services in the Hospital’s review of 100 statistically sampled E&M services billed
with diagnostic or therapeutic surgical procedures and 56 E&M services billed with Supartz
injections. However, we verified that the Hospital incorrectly billed for the remaining 109 E&M
services. The incorrect billing resulted in overpayments of $4,758. Based on these results, the
Hospital estimated that it received Medicare overpayments of $104,450 for the period January 2,
2009, through March 2, 2012. Overpayments occurred because Hospital staff did not fully
understand Medicare requirements for separately billable E&M services and did not have the
necessary education to code the correct level of E&M service.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $101,138 in estimated overpayments for E&M services
        billed with diagnostic or therapeutic surgical procedures,

    •   refund to the Medicare contractor $3,312 for 54 outpatient Supartz injections incorrectly
        billed with E&M services,

    •   refund to the Medicare contractor any overpayments related to the physician professional
        component of the sampled E&M services incorrectly billed with diagnostic or therapeutic
        surgical procedures and E&M services related to Supartz injections, and

    •   strengthen its staff education regarding the appropriate billing of E&M services.

WING MEMORIAL HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations. The Hospital stated that it would refund the E&M overpayments related to
the extrapolated sample and Supartz injections and make any adjustments to the related Part B
physician claims. The Hospital also stated that it has taken steps to strengthen its controls.

Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services   ii
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          Evaluation and Management Services ..........................................................................2
          Wing Memorial Hospital ...............................................................................................2

      How We Conducted This Review ..........................................................................................2

FINDINGS .....................................................................................................................................3

      Incorrectly Billed Evaluation and Management Services ......................................................3
           Medicare Requirements ................................................................................................ 3
           Results of Sample ......................................................................................................... 4
           Supartz Injection Review ............................................................................................. 4

      Estimated Overpayments ........................................................................................................4

RECOMMENDATIONS ...............................................................................................................5

WING MEMORIAL HOSPITAL COMMENTS ..........................................................................5

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................6

        B: Results of Review by Risk Area .....................................................................................8

        C: Wing Memorial Hospital Comments ..............................................................................9




Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services                                                  iii
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                                            INTRODUCTION

WHY WE DID THIS REVIEW

A prior Office of Inspector General review found that Wing Memorial Hospital (the Hospital)
did not fully comply with Medicare billing requirements for selected outpatient claims for
evaluation and management (E&M) services billed with diagnostic or therapeutic surgical
procedures and E&M services billed with Supartz injections. 1 Therefore, in collaboration with
the Hospital, we selected additional claims of these types to review.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
E&M services billed with diagnostic or therapeutic surgical procedures and E&M services billed
with Supartz injections.

BACKGROUND

Medicare Part B reimburses hospitals and physicians for certain procedures, such as Supartz
injections for treatment of knee osteoarthritis, administered to program beneficiaries when the
procedures are performed in hospital outpatient settings. In addition to reimbursement for the
procedure, hospitals and physicians may be eligible for an additional payment for a separate
E&M service. The additional payment reimburses (1) hospitals for overhead expenses
associated with furnishing E&M services to program beneficiaries when the services are
performed in hospital outpatient settings and (2) physicians for their professional E&M services
related to medical and surgical procedures they provide in hospital outpatient settings.

The Centers for Medicare & Medicaid Services (CMS) contracts with Medicare contractors to,
among other things, process and pay claims submitted by hospitals.

E&M services are visits and consultations furnished by physicians to new or established patients.
During a visit, the physician evaluates the patient by using the presenting illness and clinical
judgment regarding the patient’s condition to determine the options available to manage the
illness. An E&M service has three required elements in which the physician must (1) review the
history of the illness with the patient, (2) examine the patient, and (3) make a medical decision to
manage the illness.




1
    Medicare Compliance Review of Wing Memorial Hospital for Calendar Years 2009 and 2010 (A-01-11-00536).

Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services             1
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
Evaluation and Management Services

The Medicare Claims Processing Manual (the Manual) states that documentation should support
the level of service reported (Pub. No. 100-04, chapter 12, § 30.6.1 (A)). In addition, the Manual
states that a Medicare contractor pays for an E&M service that is significant, separately
identifiable, and above and beyond the usual preoperative and postoperative care associated with
the procedure that was performed (section 30.6.6(B)).

Wing Memorial Hospital

The Hospital is a 74-bed hospital located in Palmer, Massachusetts. The Hospital bills its
Medicare contractor for the overhead associated with outpatient medical services performed at
the Hospital and on behalf of its physicians for the professional services that they perform in the
Hospital’s outpatient setting.

HOW WE CONDUCTED THIS REVIEW

Our current audit covered $658,204 in Medicare payments to the Hospital for 10,250 outpatient
hospital E&M services. These services had dates of service from January 2, 2009, through
March 2, 2012. We focused our review on E&M services associated with diagnostic or
therapeutic surgical procedures and Supartz injections, 2 which we identified in our prior review
at the Hospital. Our current review does not attempt to quantify possible overpayments related
to physician Part B payments for E&M services. 3 We limited our review of the Hospital’s
internal controls to those applicable for billing selected E&M services. Our review enabled us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.



2
  Supartz is a highly purified sodium hyaluronate solution that health care providers inject into the knee joint for the
treatment of osteoarthritis.
3
 Hospital officials had agreed to separately identify the professional component involved with these E&M
overpayments on behalf of the Hospital’s physicians and appropriately reimburse the Medicare contractor.

Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services                         2
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                                               FINDINGS

The Hospital did not always comply with Medicare requirements for selected outpatient claims
for E&M services billed with diagnostic or therapeutic surgical procedures and E&M services
billed with Supartz injections. We verified that the Hospital correctly billed Medicare for 47 of
the 156 E&M services in the Hospital’s review of 100 statistically sampled E&M services billed
with diagnostic or therapeutic surgical procedures and 56 E&M services billed with Supartz
injections. However, we verified that the Hospital incorrectly billed for the remaining 109 E&M
services. The incorrect billing resulted in overpayments of $4,758. Specifically, the Hospital
incorrectly billed Medicare for:

    •   55 of 100 sampled E&M services with diagnostic or therapeutic surgical procedures, with
        overpayments of $1,446, and

    •   54 of 56 selected E&M services with Supartz injections, with overpayments of $3,312.

Based on these results, the Hospital estimated that it received Medicare overpayments of
$104,450 ($101,138 in estimated overpayments for claims incorrectly billed for E&M services
with diagnostic or therapeutic surgical procedures and $3,312 for claims incorrectly billed for
E&M services with Supartz injections) for the period January 2, 2009, through March 2, 2012.
The Hospital (1) was not eligible for additional E&M payments since the services were not
significant, separately identifiable, and beyond the usual preoperative work and (2) incorrectly
billed for the level of E&M service that it provided. Overpayments occurred because Hospital
staff did not fully understand Medicare requirements for separately billable E&M services and
did not have the necessary education to code the correct level of E&M services.

For the results of our review by risk area, see Appendix B.

INCORRECTLY BILLED EVALUATION AND MANAGEMENT SERVICES

Medicare Requirements

The Manual states that documentation should support the level of service reported (Pub. No.
100-04, chapter 12, § 30.6.1 (A)). In addition, the Manual states that a Medicare contractor pays
for an E&M service that is significant, separately identifiable, and above and beyond the usual
preoperative and postoperative care associated with the procedure that was performed (section
30.6.6(B)).




Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services   3
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
Results of Sample

The Hospital did not always comply with Medicare requirements for selected outpatient claims
for E&M services billed with diagnostic or therapeutic surgical procedures. We verified that the
Hospital correctly billed 45 sampled E&M services with diagnostic or therapeutic surgical
procedures. However, we verified that the Hospital incorrectly billed the remaining E&M
services, including:

    •   23 claims that it incorrectly billed with an E&M code for physician services that were not
        significant, separately identifiable, and above and beyond the usual preoperative work,
        which resulted in additional payments of $1,229, and

    •   32 claims that it did not properly bill at the correct level of E&M care, of which 21 of
        these claims resulted in net overpayments of $217.

Hospital officials stated that these billing errors occurred because staff did not fully understand
Medicare requirements for separately billable E&M services and did not have the necessary
education to code the correct level of E&M service.

Of the 55 incorrectly billed E&M services, 44 affected payment and resulted in Hospital net
overpayments of $1,446. For the remaining 11 E&M services, the Hospital billed at an incorrect
level of E&M service (e.g., 99212 to 99213), but this did not affect Medicare payments.

Supartz Injection Review

The Hospital received additional Medicare overpayments for E&M services related to outpatient
Supartz injections that were not significant, separately identifiable, and above and beyond the
usual preoperative work. For 56 outpatient claims with Supartz injections, we verified that the
Hospital incorrectly billed 54 for E&M payments. The claims resulted in overpayments of
$3,312.

Hospital officials stated that these errors occurred because staff did not fully understand
Medicare requirements for separately billable E&M services.

ESTIMATED OVERPAYMENTS

Based on these results, the Hospital estimated that it received Medicare overpayments of
$104,450 ($101,138 in estimated overpayments for claims incorrectly billed for E&M services
with diagnostic or therapeutic surgical procedures and $3,312 for claims incorrectly billed for
E&M services with Supartz injections) for the period January 2, 2009, through March 2, 2012.

Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services        4
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $101,138 in estimated overpayments for E&M services
        billed with diagnostic or therapeutic surgical procedures,

    •   refund to the Medicare contractor $3,312 for 54 outpatient Supartz injections incorrectly
        billed with E&M services,

    •   refund to the Medicare contractor any overpayments related to the physician professional
        component of the sampled E&M services incorrectly billed with diagnostic or therapeutic
        surgical procedures and E&M services related to Supartz injections, and

    •   strengthen its staff education regarding the appropriate billing of E&M services.

                         WING MEMORIAL HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations. The Hospital stated that it would refund the E&M overpayments related to
the extrapolated sample and Supartz injection and make any adjustments to the related Part B
physician claims. The Hospital also stated that it has taken steps to strengthen its controls to
ensure compliance with Medicare regulations. The Hospital’s comments are included in their
entirety as Appendix C.




Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services   5
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our current audit covered $658,204 in Medicare payments to the Hospital for 10,250 outpatient
hospital E&M services. These services had dates of service from January 2, 2009, through
March 2, 2012.

We focused our review on E&M services associated with diagnostic or therapeutic surgical
procedures and E&M services associated with Supartz injections, which we identified in our
prior OIG review at the Hospital.

We limited our review to the overhead component billed by the Hospital for E&M services. In
addition, we limited our review of the Hospital’s internal controls to those applicable to billing
E&M services with diagnostic or therapeutic surgical procedures and E&M services with Supartz
injections. This review does not attempt to quantify possible overpayments related to physician
Part B payments for E&M services. We established reasonable assurance of the authenticity and
accuracy of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

We conducted our fieldwork at the Hospital in November 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations and guidance;

    •   extracted the Hospital’s outpatient paid claim data billed with E&M services from CMS’s
        National Claims History file for calendar years (CY) 2009, 2010, and 2011;

    •   worked with the Hospital to obtain outpatient paid claim data with E&M services from its
        Medicare contractor, Wisconsin Physician Services, for the first Quarter of CY 2012;

    •   requested that the Hospital conduct a statistical sample of 100 E&M services billed with
        diagnostic or therapeutic surgical procedures;

    •   reviewed the results of the Hospital’s review of 100 claims and verified its estimated
        Medicare overpayments;


Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services      6
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
    •   requested the Hospital conduct a complete review of all E&M services billed with
        Supartz injections;

    •   reviewed the results of the Hospital’s review of E&M overpayments for services billed
        with Supartz injections;

    •   requested that CMS medical review staff perform an independent review of 30 E&M
        services billed with diagnostic or therapeutic procedures to confirm the results; and

    •   discussed the results of the review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services     7
Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                        APPENDIX B: RESULTS OF REVIEW BY RISK AREA

                                                                                            Claims
                                                                                             With
                                                                           Value of         Under /     Value of
                                                          Selected         Selected          Over-      Net Over-
                    Risk Area                             Claims           Claims          payments     payments
Outpatient
Claims Billed With Evaluation and Management
Services With Diagnostic or Therapeutic                      100                 $6,303            55        $1,446
Procedures
Claims Billed With Evaluation and Management
                                                              56                  3,443            54         3,312
Services With Supartz Injection Procedures
 Outpatient Totals                                           156                 $9,746        109           $4,758




     Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services         8
     Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A-01-12-00519)
                             APPENDIX C: WING MEMORIAL HOSPITAL COMMENTS 


       •~
       .,
             .Wing Memorial
             Hospital and Medical Centers
                                                                                                             40 Wright Street
                                                                                                             Palmer. MA 01069
                                                                                                             Tel: 413-283-7651
             A Member of UMass
                             Memorial Health Care


            Aprill8, 2013
t. 	
       ·· · ·Michael f Aiffisirriilt
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            Office of Audit Services, Region I
            John F. Kennedy Federal Building
            15New Sudbury Street, Room 2425
            Boston, MA 02203

            Re:     Repmt Number A-01-12-00519

            Dear Mr. Armstrong:

            Thank you for the opportunity to respond to the draft report entitled, Wing Memorial Hospital
            Did Not Always Bill Correctly for Evaluation and Management Services Related to Diagnostic
            or Therapeutic Procedures and Supartz Injections, prepared by the Office oflnspector General
            (OIG) based on a review outpatient service for compliance with Medicare hospital billing
            require~ents for use of Modifier 25. Wing Memorial Hospital and UMass Memorial Health Care
            system Compliance Offices have reviewed the draft report, and generally concur with the
            findings.

            As stated in the repmt, a probe sample of 100 claims, with dates of service in calendar years
            2009 through March 2012, was randomly selected by the hospital for review with Medicare
            requirements for billing an Evaluation and Management (E&M) established patient visit codes
            with Modifier 25 and a separate procedure. Although 55 errors were identified, errors resulting in
            overpayment to the hospital were found in 34 out of 100 cases.

                    • 	 In 22 of these cases, the E&M was found to not be significant and separately
                        identifiable based on documentation, and therefore the Modifier 25 was not
                        appropriate
                    • 	 In 8 of these cases Modifier 25 was supported, but documentation supported lower
                        level E&M
                    • 	 In 4 of these cases, an alternative E&M or HCPCS code was found to be supported by
                        the documentation

            Additionally, in 10 cases within the probe sample of 100~ errors in assigning the cmTect E&M
            level resulted in an underpayment to the hospital. Pursuant to the recommendations ofthis report,
            and the resulting extrapolation of the payment errors identified in the probe sample of 100 claims
            ($1,446) to the universe ofE&M claims submitted for services in CY 2009 through March 2, 2012,
            Wing Memorial Hospital will be refunding $10 I, 13 8 to its Part A Medicare Administrative
                                                                                                                                 9


                       Wing Medical Centers Belchertown, MA • Ludlow, MA o Monson, MA o Palmer, MA o Wilbraham, MA
            Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services
            Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A -01-12-00519)
                                                             APPENDIX C: WING MEMORIAL HOSPITAL COMMENTS
          April 18, 2013 

          Mr. Michael Armstrong 

          Page2

          Contractor. Additionally, the Hospital will refund Medicare Part B for the professional component
          of these claims based on the same extrapolation methodology.
--··   • , ~~:.-:·::.   ·: .. .' :·:.':.:'·.: ': :·:· ···::··. ·-···· '• ' --•.. ··

          In addition to the probe sample of 100 claims, the hospital also reviewed every occurrence of an
          Evaluation and Management established patient CPT code (99211- 99214) billed with the
          procedure code reflecting Arthrocentesis, aspitation and/or injection; major joint or bursa (eg,
          shoulder, hip, knee joint, subacromial bursa) (CPT 20610) and the drug, Supartz (17321), for
          dates of service in calendar years 2009 through March 2012. This review included 56 claims in
          total, as identified in a claims file provided by your Office. We agree, upon review of the
          medical record documentation, that the Evaluation and Management services were not supported
          as significant and separately identifiable from the procedure performed on the same day in 54
          cases, and have initiated the refund of resulting overpayments from both Medicare Part A
          ($3,312) and Part B, by submitting adjusted claims. We are awaiting the final return remittance
         _advice statements to confirm processing of these refunds by the respective Medicare 

          Administrative Contractors. 


         Wing Memorial Hospital has taken the following actions to strengthen controls to ensure full 

         compliance with the Medicare requirements, including additional staff education: 


                          • 	 The Hospital has enhanced its Encounter Form Quality Review process and developed a
                              formal documented procedure, which includes a review by the Nurse Manager who
                               oversees each clinic and the Operations Manager for the Multi-Specialty Clinics.
                              Additionally, all ofthese staffwere provided re-education regarding Modifier 25 coding
                              and CMS guidelines.
                          • 	 In addition, the outpatient certified Coding Staffnow review all physician documentation
                              for encounters that include an outpatient procedure and ElM coded on the same date of
                              service to ensure appropriate use ofModifier 25.
                          • 	 The Hospital has also included a quarterly documentation review ofclaims billed with an
                              established patient CPT code (99211- 99215) and Modifier 25 into its Annual
                              Compliance Plan.

         Wing Mem()rial Hospital is committed to strengthening its internal controls to ensure compliance
         with Medicare billing requirements. Accordingly, the hospital will continue to enhance the
         monitoring and internal auditing functions of its Compliance Program with support from the
         UMass Memorial Health Care Compliance Office.

          Sincerely,

         /Sarah Peterson/

         Acting Chief Compliance Officer 

         Wing Memorial Hospital & Medical Centers 



                                                                                                                    IO
  Wing Memorial Hospital Did Not Always Bill Correctly for Evaluation and Management Services
  Related to Diagnostic or Therapeutic Procedures and Supartz Injections (A -0I- I 2-005 I 9)
